No.
In the Supreme Court of the United States
STEVEN COOPER
Petitioner,
v.

STATE OF FLORIDA
Respondents,
On Petition for a Writ of Certiorari to the
Florida First District Court of Appeals
CERTIFICATE OF SERVICE
The petitioner, Steven Cooper, pro se, certifies that on March 8,2021, a copy of
the Petition for Writ of Certiorari and a copy of the Motion for Leave to Proceed In
Forma Pauperis in the above-entitled case, and a copy of this Certificate, were
served via email and/or electronic service to Jennifer.moore@myfIoridalegal.com,
Attorney for State of Florida Assistant Attorney General Office of the Attorney
General Pl-01, the Capitol Tallahassee, FI 32399-1050.

/s/Steven Cooper, Pro Se
PO Box 18617
Panama City Beach, FL 32417
AdversePossessionIsNotACrime@gmail.com
850-312-5243

RECEIVED
mar i 7 2021

